                                                               CLOSEOUT MEMORANDUM




                                                                                -
      Case Number: A 01 09 0030




             COMPLAINT:

             On 28SEPOI(FRI) the Office of Inspector General ((OIG)) received correspondence, dated OGSEPOl(THR), from
                                      , which forwarded a letter from                             asking for assistance in



             atthe   alleged that the National Science Foundation ((NSF)) funded
                                         , is engaged in predatory pricing practice
             to loose customers and foreign bids.          requested a s s i s t a n c e in forwarding his letter, dated
             24AUGOI(FRI), to the NSF OIG and to support his request that the NSF Inspector General initiate an investigation into
             his allegations since NSF has been unresponsive to his previous complaints.

             INVESTIGATIVE FINDINGS:

             a) Competitive Activities:
             No evidence was uncovered during this investigation to support        complaint that any NSF-sponsored

             radiocarbon dating services that    =
                     are engaged in any domestic or foreign-based "radiocarbon date testing" activities in competition with the
                                                engages in.

             b) Predatory Pricinq Activities:
             Of those commercial services engaged in by NSF-sponsored                            no evidence was uncovered, during this
             investigation to support              complaint that any                                    are participating in any pricing
             activities in conflict with the provisions of OMB Circular A-I 10.

             d o e s not own Accelerator Mass Spectrometer equipment and is not a radiocarbon "testing" facility.              =
             as a "retail" broker who facilities sample preparation and transshipment "to" radiocarbon dating facilities that have
                                                                                                                                       serves




                                                                                                            *
             Accelerator Mass Spectrometer equipment. As                        charges its customers the radiocarbon dating facility fees for
             the test itself (the wholesale cost), and then adds                     preparation and shipment fees, as well as any profit
             margin (the retail cost) to arrive at a total price charged to its customers. Many customers, especially those who prepare
             their own samples, do not require the sample preparation and shipment services offered by                . In these cases they

             not require           services. This being the case, when
             facilities be required to charge the "industry priceW(the
                                                                            =
             deal directly with the radiocarbon dating facilities saving the "middleman" retail fees that          charges because they do
                                                                                    demands that the NSF-supported radiocarbon dating
                                                                        wholesale price) and then cites           prices (the retail price) as
             the industry price standard for " radiocarbon dating testing,"           is citing the prices they charge for their "brokerage"
             (retail services) added to the "industry prices" for radiocarbon testing (the wholesale services). These are two distinct
             and separate services (radiocarbon date testing services vs. radiocarbon date sample preparation &shipment services)
             with two different industry price structures.

             c) NSF's Responsiveness To                         Complaints:
             With regards to           complaint that NSF has been unresponsive to his previous allegations, this investigation
             disclosed a history of ten (10) pervious complaints dating back to 1993. In each instance, NSF investigated and
             responded to           complaints citing the above facts in response to      allegations.

             With no further investigative leads remaining it is recommended that this case be closed.




111                      I            Agent              I          Attorney            I          Supervisor           1             AIGI       111
11       Sign i dgte
